Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL



THE CENTERS FOR MEDICARE &

 MEDICAID SERVICES PROVIDED

 MEDICARE PART D COVERAGE

TO BENEFICIARIES CONFINED IN

  MENTAL HEALTH FACILITIES

FOR COURT-ORDERED PURPOSES




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon

                                                Deputy Inspector General

                                                   for Audit Services


                                                        July 2014

                                                      A-07-13-06041

                         Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                       EXECUTIVE SUMMARY


 The Centers for Medicare & Medicaid Services accepted prescription drug event records
 from Medicare Part D sponsors totaling over $12.6 million on behalf of beneficiaries who
 were confined in mental health facilities by court order under a penal code during 2006
 through 2011.

WHY WE DID THIS REVIEW

While performing a separate review of Medicare Part D prescription drug payments made on
behalf of beneficiaries incarcerated in correctional facilities (incarcerated beneficiaries), we
observed that although Part C (i.e., Medicare Advantage) and Part D requirements generally
prohibit benefits paid on behalf of incarcerated beneficiaries, the requirements allow benefits
paid on behalf of beneficiaries confined in mental health facilities (State hospitals, Institutions
for Mental Diseases, psychiatric hospitals, or hospital psychiatric units) by court order under a
penal code. (We refer to these individuals as “confined beneficiaries.”) In contrast, Medicare’s
traditional fee-for-service program (Part A and Part B) generally does not pay benefits on behalf
of incarcerated or confined beneficiaries. Because of this inconsistent policy, we evaluated the
impact on Part D of providing coverage to confined beneficiaries.

The objective of this review was to evaluate the impact of the Centers for Medicare & Medicaid
Services (CMS) accepting prescription drug event (PDE) records submitted by sponsors for
prescription drugs on behalf of confined beneficiaries under the Part D program during calendar
years (CYs) 2006 through 2011.

BACKGROUND

Medicare Part D offers prescription drug benefits to individuals entitled to benefits under
Medicare Part A or enrolled in Part B, and who live in the service area of a Part D plan. CMS,
which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans (collectively known as sponsors) to offer prescription drug benefits to eligible
individuals. Sponsors are paid prospectively, and CMS makes final payment determinations
each year by adjusting the sponsors’ payments using information from the PDE records, which
include drug and payment information.

Federal regulations state that an individual is eligible for Medicare Part D benefits if he or she is
entitled to benefits under Part A or enrolled in Part B and lives in the service area of a Part D
plan. However, under current policy for the administration of Part D, CMS does not consider
confined beneficiaries to be incarcerated for the purpose of Part D eligibility, regardless of the
reason for their confinement (Medicare Prescription Drug Benefit Manual (the Manual),
chapter 3).

For Medicare Parts A and B, beneficiaries in custody of penal authorities include confined
beneficiaries. Medicare generally does not pay Part A and Part B benefits to incarcerated
beneficiaries, but those beneficiaries retain their entitlement to Part A and can retain their



Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)         i
enrollment in Part B with the payment of premiums. Accordingly, these individuals would be
eligible for payments under Part D.

WHAT WE FOUND

CMS accepted PDE records with gross drug costs, totaling $12,641,770, submitted by Part D
sponsors on behalf of 1,388 confined beneficiaries during CYs 2006 through 2011. Had those
same persons been enrolled in Medicare Parts A or B, payment for Parts A or B services would
generally not have been made. This occurred because CMS policy permits Medicare payments
to be made on behalf of confined beneficiaries enrolled in Part D but not on behalf of those
enrolled in Part A or Part B. Although the Social Security Act prohibits payment by Medicare
Parts A and B when a confined beneficiary has no legal obligation to pay for the services or the
services are paid for by a governmental entity, Part D pays benefits on behalf of confined
beneficiaries.

WHAT WE RECOMMEND

We recommend that, to be consistent with the relevant provisions of Medicare Part A and Part B,
CMS revise the Manual to prohibit Part D payments made on behalf of confined beneficiaries,
which could have resulted in cost savings associated with $12,641,770 in gross drug costs that
CMS accepted for the 6-year period we reviewed.

                                            CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendation and
described corrective actions that it had taken or planned to take. Specifically, CMS stated that it
had “… recently finalized regulations that expedite the disenrollment of incarcerated individuals
based on evidence acceptable to CMS.… CMS believes that these regulations will mitigate
improper enrollments” in Medicare Part D for incarcerated individuals.




Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)    ii
                                                    TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1 


          Why We Did This Review ...............................................................................................1 


          Objective ..........................................................................................................................1 


          Background ......................................................................................................................1 

                Medicare Prescription Drug Coverage.................................................................1 

                Medicare Payments on Behalf of Confined Beneficiaries ...................................2 

                Obtaining Information for Confined Beneficiaries ..............................................3


          How We Conducted This Review....................................................................................3 


FINDING…………………………………………………… .....................................................4 


          Federal Requirements ......................................................................................................4


          Differing Policy Allows CMS To Provide Medicare Part D

           Coverage to Confined Individuals ................................................................................4 


RECOMMENDATION…………………………………………………… ...............................5 


CMS COMMENTS .....................................................................................................................5 


APPENDIXES


          A: Audit Scope and Methodology ..................................................................................6 


          B: CMS Comments ……………………………………………………………........... .8 





Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)                                                 iii
                                             INTRODUCTION


WHY WE DID THIS REVIEW


While performing a separate review of Medicare Part D prescription drug payments made on
behalf of beneficiaries incarcerated in correctional facilities (incarcerated beneficiaries), 1 we
observed that although Part C (i.e., Medicare Advantage) and Part D requirements generally
prohibit benefits paid on behalf of incarcerated beneficiaries, the requirements allow benefits
paid on behalf of beneficiaries confined in mental health facilities (State hospitals, Institutions
for Mental Diseases (IMDs), psychiatric hospitals, or hospital psychiatric units) by court order
under a penal code. (We refer to these individuals as “confined beneficiaries.”) In contrast,
Medicare’s traditional fee-for-service program (Part A and Part B) generally does not pay
benefits on behalf of incarcerated or confined beneficiaries. Because of this inconsistent policy,
we evaluated the impact on Part D of providing coverage to confined beneficiaries. 2

OBJECTIVE

Our objective was to evaluate the impact of the Centers for Medicare & Medicaid Services
(CMS) accepting prescription drug event (PDE) records submitted by sponsors for prescription
drugs on behalf of confined beneficiaries under the Part D program during calendar years (CYs)
2006 through 2011.

BACKGROUND

Medicare Prescription Drug Coverage

Medicare provides health insurance for people aged 65 and over, people with disabilities, and
people with permanent kidney disease (Title XVIII of the Social Security Act (the Act)). Under
Medicare Part D, which began January 1, 2006, 3 individuals entitled to Medicare benefits under
Part A or enrolled in Part B and who live in the service area of a Part D plan may obtain
prescription drug coverage. CMS, which administers Medicare, contracts with private
prescription drug plans and Medicare Advantage plans (collectively known as sponsors) to offer
prescription drug benefits to eligible individuals.




1
 Medicare Improperly Paid Millions of Dollars for Prescription Drugs Provided to Incarcerated Beneficiaries
During 2006 Through 2010 (A-07-12-06035), issued January 27, 2014.
2
 A separate audit, The Centers for Medicare & Medicaid Services Paid Medicare Advantage Organizations for
Services Provided to Beneficiaries Confined in Mental Health Facilities for Court-Ordered Purposes
(A-07-13-06043), will report on the impact on the Part C program.
3
 Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (P.L. No. 108-173, § 101)
amended Title XVIII of the Act (§ 1860D-1(a) et seq., 42 U.S.C. § 1395w-101(a) et seq.) to establish the Voluntary
Prescription Drug Benefit Program, known as Medicare Part D.



Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)                  1
As a condition of payment, every time a Medicare beneficiary fills a prescription covered under
Part D, the sponsor must submit a PDE record to CMS. 4 PDE records (which are collectively
referred to as “PDE data”) include drug cost and payment information that enables CMS to
administer the Part D benefit. Sponsors must submit final PDE data to CMS within 6 months
after the end of the coverage year (42 CFR § 423.343(c)(1)).

For CYs 2006 through 2011, sponsors submitted final PDE data to CMS with gross drug costs
totaling approximately $419 billion.5

CMS pays sponsors for Part D benefits prospectively. 6 These prospective payments are based on
information in the sponsors’ approved annual bids. After the close of the coverage year, CMS
reconciles the prospective payments with the actual costs incurred by sponsors and determines
the amount that each sponsor will owe to or receive from Medicare for the plan year. CMS’s
reconciliations are based on sponsors’ final PDE data. CMS uses these data to make payments to
drug sponsors and administer the Part D benefit. 7

Medicare Payments on Behalf of Confined Beneficiaries

An individual is eligible for Medicare Part D benefits if he or she is entitled to benefits under
Part A or enrolled in Part B and lives in the service area of a Part D plan (42 CFR
§ 423.30(a)(1)(i-ii)).

Chapter 3 of CMS’s Medicare Prescription Drug Benefit Manual (the Manual) uses the term
“incarceration” to refer to the status of an individual who has been placed in a correctional
facility, such as a jail or a prison. According to the Manual, an individual who is incarcerated is
considered to be living outside of any Part D plan’s service area for the purposes of eligibility,
even if the correctional facility is located within a plan’s service area. Federal regulations
similarly state that facilities in which individuals are incarcerated are not to be regarded as being
within service areas for purposes of Part D coverage (42 CFR § 423.4).

The Manual, chapter 3, provides guidance to Part D sponsors as to beneficiary eligibility,
enrollment, and disenrollment. Under CMS policy, confined beneficiaries 8 are not considered to
be incarcerated for the purpose of Part D eligibility and are not excluded from the service area
for the purposes of Part D coverage (the Manual, chapter 3, § 10.2).

4
    The Act, §§ 1860D-15(c)(1)(C) and (d)(2); 42 CFR § 423.322.
5
 CMS defines “gross drug costs” as the sum of the following PDE payment fields: covered plan paid amount,
noncovered plan paid amount, patient pay amount, low-income cost-sharing payment, other true out-of-pocket costs,
and patient liability reduction as a result of another payer amount (Instructions: Requirements for Submitting
Prescription Drug Event Data, § 7.2.3).
6
    The Act, §§ 1860D-14 and -15; 42 CFR § 423.315.
7
    42 CFR §§ 423.329 and 423.343.
8
 The classification “confined beneficiaries” includes beneficiaries who are confined in mental health facilities by
court order under a penal code, including those beneficiaries determined to be incompetent to stand trial, adjudged
not guilty by reason of insanity, or awaiting a determination of competence to stand trial.


Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)                       2
Section 1862 of the Act provides that no payment will be made under Medicare Parts A or B for
services for which a beneficiary has no legal obligation to pay or which are paid for by a
governmental entity. Accordingly, Federal regulations (42 CFR § 411.4(b)) generally prohibit
Parts A and B payments for services rendered to beneficiaries in custody of penal authorities.
Federal regulations provide that, for Parts A and B, beneficiaries in custody of penal authorities
include confined beneficiaries. Medicare generally does not pay Part A and Part B benefits to
incarcerated beneficiaries, but those beneficiaries retain their entitlement to Part A and can retain
their enrollment in Part B with the payment of premiums. Accordingly, these individuals would
be eligible for payments under Part D.

Obtaining Information for Confined Beneficiaries

The Social Security Administration (SSA) is CMS’s primary source of information about
incarcerated beneficiaries. Generally, SSA collects information, such as the names of Medicare
beneficiaries and the dates on which beneficiaries begin periods of incarceration, directly from
penal authorities. SSA also collects incarceration end dates from beneficiaries’ requests for
reinstatement of Social Security benefits.

CMS’s Enrollment Database (EDB) interfaces with SSA’s systems to identify incarcerated
beneficiaries. 9 Each month, CMS receives a file, known as the Prison Reply Data file, from
SSA. This file includes information about each incarcerated beneficiary, the incarceration start
date and end date (if applicable), and facility information (such as the name and type of facility)
that we used to determine whether the facility was a mental health facility.

HOW WE CONDUCTED THIS REVIEW

We identified confined beneficiaries according to CMS’s Prison Reply Data file as of
November 27, 2012, and used the EDB (as of February 23, 2013) to identify confined
beneficiaries (as listed in the Prison Reply Data file) who were confined in mental health
facilities at some point during CYs 2006 through 2011. 10

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.




9
 The EDB uses information from SSA to identify incarcerated individuals. These data are ultimately provided to
sponsors to verify a beneficiary’s eligibility for Part D.
10
  We based the timeframe of this review on the availability of PDE data that we used during a separate audit; see
footnote 1.


Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)                     3
                                                 FINDING


CMS accepted PDE records with gross drug costs, totaling $12,641,770, submitted by Part D
sponsors on behalf of 1,388 confined beneficiaries during CYs 2006 through 2011. Had those
same persons been enrolled in Medicare Parts A or B, payment for Parts A or B services would
generally not have been made. This occurred because CMS policy permits Medicare payments
to be made on behalf of confined beneficiaries enrolled in Part D but not on behalf of those
enrolled in Part A or Part B. Although the Act prohibits payment by Medicare Parts A and B
when a confined beneficiary has no legal obligation to pay for the services or the services are
paid for by a governmental entity, Part D pays benefits on behalf of confined beneficiaries.

FEDERAL REQUIREMENTS

Section 1862 of the Act and Federal regulations generally prohibit payment for Medicare Part A
and Part B services rendered to beneficiaries in custody of penal authorities. Federal regulations,
however, allow payment if the State or local law requires these beneficiaries to repay the cost of
medical services and if the State or local government entity enforces the requirement to pay (42
CFR § 411.4(b)).

Federal regulations governing Medicare Parts A and B define individuals who are in custody of
penal authorities as “… individuals who are under arrest, incarcerated, imprisoned, escaped from
confinement, under supervised release, on medical furlough, required to reside in mental health
facilities, required to reside in halfway houses, required to live under home detention, or
confined completely or partially in any way under a penal statute or rule” (42 CFR § 411.4(b);
emphasis added).

Federal regulations state that an individual is eligible for Part D benefits if he or she is
(1) entitled to Medicare benefits under Part A or enrolled in Part B and (2) resides in the service
area of a Part D plan (42 CFR § 423.30(a)(1)(i-ii)). Facilities in which individuals are
incarcerated are not to be regarded as being within service areas for purposes of Part D coverage
(42 CFR § 423.4). A beneficiary who is incarcerated “is considered to be residing outside the
plan’s service area for purposes of Part D plan eligibility, even if the correctional facility is
located within the plan’s service area” (the Manual, chapter 3, § 10).

The Manual, chapter 3, provides guidance to Part D sponsors as to beneficiary eligibility,
enrollment, and disenrollment. Individuals who fall within the classification of confined
beneficiaries8 are not considered to be incarcerated for the purpose of Part D eligibility (the
Manual, chapter 3, § 10.2).

DIFFERING POLICY ALLOWS CMS TO PROVIDE MEDICARE PART D
COVERAGE TO CONFINED INDIVIDUALS

CMS accepted PDE records submitted by sponsors for prescription drugs provided to confined
beneficiaries because CMS policy is different for Medicare Part D than it is for Parts A and B.
This policy difference allows confined beneficiaries to receive Part D benefits even though




Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)   4
Federal requirements prohibit coverage under Parts A and B (the Act, § 1862; 42 CFR
§ 411.4(b)). Although Medicare Parts A and B generally prohibit payments for both incarcerated
and confined individuals, CMS does not consider confined beneficiaries to be incarcerated for
the purposes of Part D. Both incarcerated and confined beneficiaries have no legal obligation to
pay for services or the services are paid for by a governmental entity.

Because of the foregoing policy differences, CMS accepted PDE records with gross drug costs
totaling $12,641,770 during CYs 2006 and 2011 on behalf of 1,388 confined beneficiaries who
would not have been eligible for services under Parts A or B. The absence of a consistent
payment policy across the various Medicare programs works to prevent those programs from
achieving the uniformity they need to be administered efficiently.

                                         RECOMMENDATION

We recommend that, to be consistent with the relevant provisions of Medicare Part A and Part B,
CMS revise the Manual to prohibit Part D payments made on behalf of confined beneficiaries,
which could have resulted in cost savings associated with $12,641,770 in gross drug costs that
CMS accepted for the 6-year period we reviewed.

                                           CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendation and
described corrective actions that it had taken or planned to take. Specifically, CMS stated that it
had “… recently finalized regulations that expedite the disenrollment of incarcerated individuals
based on evidence acceptable to CMS (79 FR [Federal Register] 29843).… CMS believes that
these regulations will mitigate improper enrollments” in Medicare Part D for incarcerated
individuals.

CMS also stated that while it agrees with what this report says regarding confined individuals,
“… we do want to clarify that CMS continues to believe that it is appropriate for beneficiaries
confined to IMDs, not based on criminal offenses, to be included within the Part D sponsor’s
service area. This is because there are individuals who are confined by court order to an IMD for
which no penal codes were violated.” CMS added that to ensure understanding by Part D
sponsors, it would update the Manual to clarify when Part D enrollment is permitted in cases of
confinement to an IMD.

CMS’s comments appear in their entirety as Appendix B.




Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)       5
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our audit covered $12,641,770 in gross drug costs reflected in final PDE records that sponsors
submitted on behalf of confined beneficiaries for CYs 2006 through 2011. 11 We did not review
CMS’s overall internal control structure because our objective did not require us to do so. We
reviewed only the internal controls directly related to our objective.

We did not verify the confinement status or dates of confinement of the beneficiaries whom we
identified as confined.

We conducted this audit from October 2012 through August 2013.

METHODOLOGY

To accomplish our objective, we:

        •	 reviewed applicable Federal laws, regulations, and guidance;

        •	 held discussions with CMS officials to gain an understanding of CMS’s internal
           controls related to incarcerated beneficiaries and its policies for eligibility of confined
           beneficiaries;

        •	 held discussions with SSA officials to gain an understanding of SSA’s systems and
           processes for obtaining data on incarcerated individuals;

        •	 obtained CMS’s Prison Reply Data file (received monthly from SSA) to identify (as
           of November 27, 2012) confined beneficiaries;

        •	 used the EDB (as of February 23, 2013) to identify confined beneficiaries (from
           CMS’s Prison Reply Data file) who were confined in mental health facilities at some
           point during CYs 2006 through 2011;

        •	 obtained PDE records for these confined beneficiaries for CYs 2006 through 2011;

        •	 modified our population by:

             o	 removing all duplicate PDE records and

             o	 removing all PDE records for “non-covered” drugs (e.g., over-the-counter drugs);



11
  We based the timeframe of this review on the availability of PDE data that we used during a separate audit; see
footnote 1.

Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)                     6
        •	 calculated the gross drug costs totaling $12,641,770 for prescription drugs provided
           to confined beneficiaries; and

        •	 discussed the results of our review and provided detailed information to CMS
           officials on March 12, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)   7
                                APPENDIX B: CMS COMMENTS
	




Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)   8
Medicare Part D Payments for Beneficiaries Confined in Mental Health Facilities (A-07-13-06041)   9
